                                          Statement of
                                        Lorraine Lewis
                                       Inspector General
                                 U.S. Department of Education

                                        Before the
                        Subcommittee on Oversight and Investigations
                         Committee on Education and the Workforce
                              U.S. House of Representatives

                                       September 19, 2000



Mr. Chairman and Members of the Subcommittee:



       I am here today at your invitation to discuss matters related to financial management and

computer security at the Department of Education. Specifically, I will address: (1) the

Department’s progress on fiscal year (FY) 1999 financial statement audit recommendations; (2)

the status of the FY 2000 financial statement audit; (3) a summary of duplicate payments made

in FY 2000; (4) recent OIG computer security reviews; and (5) recent investigations.



Progress on FY 1999 Financial Statement Audit Recommendations

       On March 1, 2000, we testified before the Subcommittee on Oversight and Investigations

and reported that a total of 139 recommendations had been made for the FY 1995 through the FY

1999 financial statement audits. At that time, 111 recommendations remained open, 28 were

closed, and 74 were non-repetitive. Since that hearing, the Department provided us with a

response to the FY 1999 financial statement audit and corrective action plans for all of the

financial statement audits.
                                                                                                    2


        Through the cooperative efforts of the Department and my office, 95 recommendations

have closed and 44 remain open. Thirty of the 44 recommendations open for corrective action

are non-repetitive. Of the 24 recommendations contained in the FY 1999 financial statement

audit, 18 are open and six are closed.

        The Department provided my office with updated corrective action plans for the FY 1995

through FY 1999 financial statement audits on September 15, 2000. Currently, we are assessing

these corrective action plans.



Fiscal Year 2000 Financial Statement Audits

        As a result of meeting the March 1, 2000, deadline for the FY 1999 audit, we are much

further along in the audit of FY 2000 than we were this time last year for FY 1999. Timely

reporting for FY 1999 has allowed us to plan earlier for this year's audit, with the greatest strides

made in the coordination of our own systems audit efforts with those of Ernst & Young's

information systems auditors. This coordination has helped increase the audit coverage in this

important area of work.

        The Department has focused earlier on the financial statement preparation process. For

example, the Department prepared two sets of interim statements, as of March 31 and June 30.

The final financial statements are due to us on December 1. As Ernst & Young will testify, we

are unable to forecast or speculate as to the ultimate opinion which will be rendered in March

2001.
                                                                                                   3


Duplicate Payments

          At your request, I am providing this summary of duplicate payments issued by the

Department in FY 2000. Four instances of duplicate payments occurred in FY 2000 and

involved either grants or student financial assistance. Three of these instances were discovered

soon after they occurred by the grantees or schools and the Department was subsequently

informed. The other instance was identified by system controls in the electronic payment

system.

          Two of the instances occurred in October 1999 and two occurred in December 1999. In

October, a payment for $19 million was transmitted twice, then subsequently recovered by an

electronic reversal. A second instance resulted in $125 million in duplicate payments being

issued to approximately 48 grantees. In December 1999, duplicate payments totaling $663,472

were issued to 51 schools, and $6 million was issued to one school. All of these duplicate

payments have been recovered.



Computer Security

          Several recent OIG reports indicate that the Department needs to improve its computer

security controls.



Report on Security Posture, Policies, and Plans

          In February 2000, we issued an audit that reviewed the security posture, policies and

plans for the Department’s 14 mission-critical information technology systems. Our objective

was to determine the existence of required security documentation and its compliance with

applicable requirements of the Computer Security Act [40 U.S.C. 1441 note], Paperwork
                                                                                                   4


Reduction Act [44 U.S.C. 3506(g)(1)], and Appendix III of the Office of Management and

Budget’s (OMB) Circular A-130. Specifically, we determined whether these systems had

security plans in place, met requirements for a current security review, and had corrective action

plans in place to correct identified deficiencies. We also determined whether the Department

took steps to screen appropriate personnel and whether system security officers received security

training. Our scope did not include a security review of the remaining 161 systems that the

Department identifies as non-critical.

       During this review, we found the following weaknesses: (1) the Department has not

completed revisions of its security policies; (2) systems security officers of student financial

assistance systems do not report to managers that have functional authority over the process

being automated; (3) security plans are not in place for six mission-critical systems; (4) the

Department did not complete required security reviews for six mission-critical systems; (5) there

is no process to ensure resolution of identified security deficiencies; (6) many employees

responsible for overseeing computer security lack required technical security training; (7) the

Department has not taken steps to ensure that appropriate personnel are screened. Two of these

findings -- the lack of security plans and the lack of technical security training -- represent

noncompliance with the Computer Security Act. All seven findings represent noncompliance

with the OMB Circular A-130. Because the Department is not adhering to requirements in

Circular A-130, it may not be in compliance with the Paperwork Reduction Act.

       The Department agreed with the overall content of our report and concurred with the

seven findings. The Chief Information Officer (CIO) recently informed us that the security

reviews have now been completed for the remaining six systems and that security plans should

be in place for all critical systems by October 2000. The CIO has also updated its IT security
                                                                                                   5


policy and submitted it for clearance as a Department directive. In July, the Deputy Secretary

issued a memorandum requiring all Department staff to complete computer security awareness

training. According to the Department, as of September 13, 2000, 85 percent of Department

staff have completed this training. The CIO is also working to identify individuals who need

more specialized training and to acquire the appropriate courses for these staff. As we

recommended, the Department also reported security management as a material weakness in its

1999 Federal Managers’ Financial Integrity Act report. We will continue to monitor the

Department’s corrective actions to address our findings and recommendations, as well as

conduct an annual review of the Department’s security program.



Reviews of GAPS and EDNet

       We have also performed detailed security audits of two critical systems in the

Department -- the Grant Administration and Payment System (GAPS) and the Department-wide

network (EDNet). The review of GAPS security was completed in September 1998. The report

Review of EDNet Security was completed in July 2000 and evaluated the security posture of the

Department’s information technology infrastructure. The EDNet is the Department’s primary

network facility and is comprised of a telecommunications system and many connected

resources, including large computers, printers, and local area networks (servers). Use of EDNet

allows connectivity among all Departmental information technology resources.

       We identified several areas in these audits where the Department can strengthen controls

to enhance overall accountability and control of these systems. We cannot disclose the specific

findings and recommendations to the public since these audits contain sensitive security-related
                                                                                                   6


information. The Department concurred with our findings and recommendations and we will

continue to monitor the progress of their corrective actions.



Review of PDD 63

       Our office also recently completed work on an audit entitled Review of Planning and

Assessment Activities for Presidential Decision Directive 63 – Critical Infrastructure Protection.

Presidential Decision Directive 63 (PDD 63) is a national effort to assure the security of the

nation’s critical infrastructures. We are participating in a government-wide review by the

President’s Council on Integrity and Efficiency on implementation of PDD 63. Our current audit

represents the first phase of this project. The objective for the first phase was to assess the

adequacy of agency planning and assessment activities for protecting their critical, cyber-based

infrastructures. We reviewed: (1) the adequacy of the Department’s plans; (2) its asset

identification efforts; and (3) initial vulnerability assessments. We found that the Department

needs to revise and implement its critical infrastructure protection plan, identify its critical

infrastructure assets, and conduct vulnerability assessments of those assets. Overall, we made

ten recommendations to the Department that address our findings. The Department has

concurred with our findings and recommendations and we will monitor the progress of their

corrective actions.



Recent Actions

       Among those actions already implemented, the Department’s CIO designated a Deputy

CIO for Information Assurance and assigned three additional staff members to the IT security

area. The Department has also established the Information and Critical Infrastructure Assurance
                                                                                                  7


Steering Committee (Steering Committee). Its mission is to advise the Deputy Secretary, CIO,

and Chief Infrastructure Assurance Officer on Department-wide IT security and critical asset

assurance policies and to coordinate and help implement the Department’s information security

and critical information structure assurance program. The Committee is co-chaired by Deputy

Secretary Frank Holleman and CIO Craig Luigart. Senior officers have designated principal

office representatives.

       The Steering Committee has established several work groups to assist with: (1) security

awareness and training, (2) incident handling, (3) background investigations, (4) continuity of

operations in case of disaster, (5) authentication and public key infrastructure, (6) privacy

protection, and (7) development and implementation of a Department-wide Critical

Infrastructure Protection Plan. The CIO has informed us that the Department has established an

interagency agreement to use the General Services Administration’s Safeguard Program to seek

contractual support for identifying critical infrastructure assets by December 2000 and perform

vulnerability assessments by April 2001. The CIO has informed us that he expects to submit a

revised critical infrastructure protection plan to the Steering Committee in October 2000.

       These audits reflect the need for improved computer security at the Department. We

have identified improvement of computer security posture, policies, and plans as a top

management challenge and we will continue to closely monitor the Department’s corrective

actions on our existing audits. Additionally, we plan to conduct an annual review of the

Department’s computer security program.
                                                                                                  8


Investigations

       As your staff requested verbally, I am providing information on pending investigations.

Since the investigations are ongoing, I am providing only the information that is publicly

available through court filings or other public disclosures.



Investigation 1

       We are conducting a vigorous investigation of individuals who, between 1997 and 1999,

purchased equipment with federal funds for non-business related purposes, billed the Department

for hours not worked, and received goods purchased with federal funds for personal use. These

items include computers, printers, computer software, scanners, cordless telephones, a 61-inch

television, walkie-talkies, compact disc players, and other equipment. The total cost of these

items to the Department was over $300,000. In addition, it is estimated that between January 1,

1997, and November 30, 1999, approximately $634,000 in unworked hours were fraudulently

charged to the Department by individuals involved in the case. Thus far, three individuals,

Robert J. Sweeney, Joseph Dennis Morgan, and Raymond L. Morgan, Jr. have pled guilty based

on their involvement in the case.

       Additionally, the U.S. Attorney’s Office for the District of Columbia has filed criminal

charges against three other individuals associated with this criminal activity. These three

individuals are current employees of the Department who have been placed on indefinite

suspension without pay.
                                                                                                     9


Investigation 2

       On this matter, I can discuss only what has been made a matter of public record by the

filing of a civil complaint to recover fraudulently misdirected Impact Aid funds. My office and

the FBI are conducting a vigorous investigation, in conjunction with the U.S. Attorney’s Office

for the District of Columbia.

       On July 13, 2000, the Department of Justice filed a verified civil complaint for forfeiture

in rem to recover $1,657,980 from several bank accounts, two vehicles, and a building in

Riverdale, Maryland. After serving the appropriate interested parties, publishing required

notices and waiting the required periods during which time no answers or claims were filed, the

Department of Justice filed a motion for default judgment of forfeiture, which is pending before

the U.S. District Court for the District of Columbia.

       Background information set forth in the complaint states that $1.9 million in Impact Aid

grant funds were fraudulently wired into two bank accounts. These Impact Aid funds should

have been disbursed to two school districts in South Dakota. Nearly all the funds and property

purchased with these funds have been seized by the United States. A lis pendens has been placed

against the real property. The cars were located and seized in April and May 2000 by OIG, FBI,

and local police in Maryland.



Conclusion

       Our support for strong financial management and computer security is evidenced by the

audits and investigations discussed above. In addition, we will continue to identify areas for

improvement at the Department of Education.
                                                                                               10


       Ultimately, the design and implementation of any internal control must be based on an

analysis of costs and benefits. Even well designed and implemented internal controls cannot

provide absolute assurance against fraud, waste, and abuse. There will always be factors such as

human mistakes and acts of collusion that will be outside the control or influence of

management. That is why we need to remain vigilant and maintain a credible deterrence

through, among other things, a regular program of management reviews, an active hotline

function, and vigorous audit, investigative, and inspection operations.

        Mr. Chairman, that concludes my prepared testimony. I am happy to answer any

questions you or other members of the Subcommittee may have on these issues.
